APPENDIX

ll

FIL

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 1 of 22

2018Fab-1S AM
U.S. DISTRICT C
N.D. OF ALA

EXHIBIT 1

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
NORTHEASTERN DIVISION
JAMES L. HINES,

}
}
}
}

Plaintiff,
y.

}

Case No.: 5:16-cv-01996-MHH

}
}
}
}
}

REGIONS BANK f/k/a UNION
PLANTERS BANK, N.A.,
Defendant.

MEMORANDUM OPINION
Before the Court are defendant Regions Bank’s motion to dismiss this action
by pro se plaintiff James L. Hines and Mr. Hines’s motion for entry of default
against Regions. (Docs. 7,12). Mr. Hines filed this action on September 14,2016
in the Circuit Court for Madison County, Alabama in response to Regions’s efforts
to foreclose on a mortgage on his property in Scottsboro, Alabama. (Doc. 1-1, pp.
3, 6). Mr. Hines filed for bankruptcy under Chapter 7 in October 2013 and has
been in default on his mortgage since December 7,2014. (Doc. 1-1, p. 5).
Mr. Hines acknowledges that Regions’s mortgage on his property survived
his bankruptcy, but he argues that Regions, through its conduct, has lost the right to
accelerate the balance of the mortgage. (Doc. 1-1, p. 6). Mr. Hines filed this suit
because “a non-judicial foreclosure [would] not allow him to assert the defenses he
1

Case 5:16-ev-01996-MHH Document 22 Filed 02/15/18 Page 2 of 22

is entitled to.” (Doc. 1-1, p. 5). As defenses to foreclosure, Mr. Hines asserts
Regions’s violation of the Real Estate Settlement Procedures Act (RESPA),
estoppel by acquiescence, laches, and unclean hands. (Doc. 1-1, p. 6).
Regions removed this case from state to federal court pursuant to
28 U.S.C. § 1441 because Mr. Hines’s RESPA claims arise under federal law.
(Doc. 1, p. 3). After removing the case, relying on Rule 12(b)(6), Regions moved
the Court to dismiss Mr. Hines’s complaint for failure to state a claim on which the
Court may grant relief. (Doc. 7). Mr. Hines responded by moving the Court to
enter a default against Regions based on his assertion that Regions’s response to
his state court complaint was untimely. (Doc. 12). For the reasons explained
below, the Court will grant in part and deny in part Regions’s motion to dismiss
this action. The Court also will deny Mr. Hines’s motion for entry of default
against Regions.
I. STANDARD OF REVIEW
Under Rule 8(a)(2), a complaint must contain “a short and plain statement of
the claim showing that the pleader is entitled to relief” Fed. R. Civ. P. 8(a)(2). A
motion to dismiss based on Rule 12(b)(6) asks the Court to dismiss a complaint
because the plaintiff has not pleaded a claim on which relief can be granted.
Fed. R. Civ. P. 12(b)(6). To resolve Regions’s motion to dismiss, the Court must
consider whether Mr. Hines has alleged facts that “state a claim to relief that is
2

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 3 of 22

plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007)). The facts that Mr. Hines
alleges must be sufficient for the Court “to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id. At the motion to dismiss stage,
the Court “must and do[es] assume that any well-pleaded allegations in the
amended complaint are true.” Edwards v. Prime, Inc., 602 F.3d 1276, 1284 (11th
Cir. 2010). Like any other plaintiff, a pro se plaintiff must offer factual support for
his claim, but “[a] pro se pleading is held to a less stringent standard than a
pleading drafted by an attorney and is liberally construed.” Waldman v. Conway,
871 F.3d 1283,1289 (11th Cir. 2017) (internal quotations omitted).
II. DISCUSSION
a. Mr. Hines’s Request for Default Against Regions
With respect to his request for an entry of default against Regions, which
Mr. Hines raised in his response to Regions’s motion to dismiss, Mr. Hines
contends that, after filing this action on September 7, 2016, he served process “on
Regions Bank at its address in Birmingham, Alabama” and on Regions’s “attorney
of record, W.L. Longshore.” (Doc. 12, p. 1). Mr. Hines contends that “Regions
cannot deny that it received and was aware of the Complaint, yet [Regions] failed
to answer the complaint or file a motion to dismiss within the time limit set forth
under Rule 12, Alabama Rules of Civil Procedure and is in default.” (Doc. 12, pp.
3

Case 5:16-ev-01996-MHH Document 22 Filed 02/15/18 Page 4 of 22

1-2). In response, Regions argues that it cannot be in default because Mr. Hines
never properly served Regions, and Regions timely removed the case to this Court
before Mr. Hines effectively served Regions with process. (Doc. 1, p. 2; Doc. 13,
p.2).
The original state court complaint, which Regions attached to its notice of
removal, indicates that Mr. Hines filed this case on September 14, 2016. (Doc. 11, pp. 2-3). The Court’s review of the docket indicates that Regions’s December
13, 2016 removal of the case from state to federal court was the bank’s first
response to Mr. Hines’s complaint. (See Doc. 1, p. 2; Doc. 1-1, p. 2; Doc. 13-1, p.
2). Although Regions’s response comes well after Mr. Hines filed this case,
Regions’s delay may result in default only if Mr. Hines properly served the bank;
without proper service of process, the Court does not obtain jurisdiction over a
party. See Pardazi v, Cullman Med. Ctr., 896 F,2d 1313, 1317 (11th Cir, 1990)
(“Service of process is a jurisdictional requirement: a court lacks jurisdiction over
the person of a defendant when that defendant has not been served.”). The records
from the state court proceedings, also attached to Regions’s notice of removal,
indicate that Mr. Hines attempted to serve Regions on September 14, 2016 by
sending a copy of the summons and complaint via certified mail to a post office
box. (Doc. 1-1, p. 9). Mr. Hines asserts that he also served Regions with process

4

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 5 of 22

by sending the summons and complaint to Regions’s counsel in the foreclosure
proceedings, Longshore, Buck and Longshore P.C. (Doc. 12, p. 1).
The Alabama Rules of Civil Procedure permit a plaintiff to serve a corporate
entity “by serving an officer, a partner (other than a limited partner), a managing or
general agent, or any agent authorized by appointment or by law to receive service
of process.” Ala. R. Civ. P. 4(c)(6).1 A plaintiff may use certified mail to serve a
corporation, but the addressee of that certified mailing must be one of the persons
listed in Rule 4(c)(6). See Ala. R. Civ. P. 4(h)(2)(B)(i). Even where the plaintiff
properly addresses the certified mailing, Alabama’s rules state that:
[s]ervice by certified mail shall be deemed complete and the time for
answering shall run from the date of delivery to the named addressee
or the addressee’s agent as evidenced by signature on the return
receipt. Within die meaning of this subdivision, “agent” means a
person or entity specifically authorized by the addressee to receive the
addressee’s mail and to deliver that mail to the addressee.
Ala. R. Civ. P. 4(h)(2)(C) (emphasis added).
Mr. Hines’s attempts at service do not comport with Alabama’s rules. Mr.
Hines addressed his summons and complaint to a P.O. Box, not to an officer,
general agent, or authorized agent of Regions. {See Doc. 1-1, p. 9). Therefore,

1 The Federal Rules of Civil Procedure contain a similar provision. See Fed. R. Civ. P.
4(h)(1)(B). (A plaintiff may effect service on a corporation “by delivering a copy of the
summons and complaint to an officer, a managing or general agent, or any other agent authorized
by appointment or by law to receive service of process.”).
5

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 6 of 22

this attempt at service was inadequate. See Ex Parte LERETA, LLC, 226 So. 3d
140,145 (Ala. 2016)).
Although Mr. Hines’s attempt to serve process on Regions’s through the
bank’s counsel in the foreclosure proceedings may be closer, it too misses the
mark.
Neither the Alabama Code nor our Rules of Civil Procedure authorize
process service on the defendant’s attorney unless performed in
compliance with Rule 4(h), Singleton v. Allen, 431 So. 2d 547 (Ala.
Civ. App. 1983), or unless there is credible evidence of the
appointment of the attorney as agent for purposes of service of
process, or that he is authorized by law in accordance with Rule
4(c)(1).
Kingvision Pay-Per-View, Ltd. v. Ayers, 886 So. 2d 45, 52 (Ala. 2003) (quoting
Colvin v. Colvin, 628 So. 2d 802, 803 (Ala. Civ. App. 1993)). Longshore, Buck
and Longshore’s representation of Regions in the foreclosure proceeding does not
make that firm Region’s general agent for service of process. See LVNV Funding,
LLC v. Boyles, 70 So. 3d 1221, 1228 (Ala. Civ. App. 2009) (holding that a party’s
attorney did not, by virtue of its representation alone, become the party’s agent for
service of process.). Mr. Hines’s has not pointed to evidence beyond Longshore’s
representation in the foreclosure proceeding from which the Court could conclude
that Longshore was Regions’s authorized agent for service of process. Therefore,
this effort to serve process was inadequate. In addition, neither of Mr. Hines’s

6

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 7 of 22

attempts at service resulted in the return of a signed receipt as contemplated by
Rule 4(h)(2)(C). (See Doc. 1-1, p. 2; Doc 13-1, p. 2; Ala. R. Civ. P. 4(h)(2)(C)).
That Regions became aware of Mr. Hines’s case does not render the manner
in which Mr. Hines served Regions with process valid under the governing law.
See Albra v. Advan, Inc., 490 F.3d 826, 829 (11th Cir. 2007) (“A defendant’s
actual notice is not sufficient to cure defectively executed service.”). Without
proper service of process, Regions was not obligated to answer the complaint or
otherwise defend the case, and because Regions had no such obligation, Mr. Hines
is not entitled to an entry of default. Therefore, the Court denies Mr. Hines s
motion for entry of default against Regions,
b. Mr. Hines’s RESPA Claims
Mr. Hines argues that Regions may not accelerate the balance of his
mortgage because Regions has violated the Real Estate Settlement Procedures Act.
Mr. Hines bases his RESPA claims on sections 1024.39 and 1024.40 of Regulation
X, a regulation which implements RESPA and which the Consumer Financial
Protection Bureau amended in 2013. Mortgage Servicing Rules Under the Real
Estate Settlement Procedures Act (Reglation X), 78 Fed. Reg. 10696 (Feb. 14,
2013).
In support of his RESPA claims, Mr. Hines alleges that “Regions Bank
personnel have consistently ignored Plaintiffs correspondence and have failed to
7

Case 5:16-CV-01996-MH H Document 22 Filed 02/15/18 Page 8 of 22

abide by the Real Estate and Settlement Act [sic] regarding early intervention and
personal contact” (Doc. 1-1, p. 5). Mr. Hines alleges that he has attempted to
contact Regions regarding his delinquency on several occasions including by
certified mail without receiving a response. (Doc. 12, p. 3). Mr. Hines also alleges
that he has offered to make a lump-sum payment towards his mortgage debt and to
resume payment “at the same monthly installments that were on the original loan.
(Doc. 1-1, p. 6). Mr. Hines claims that he and his wife suffered “embarrassment,
anguish, pain and suffering caused by the unconscionable practice of
Regions

Bank and it’s [sic] personnel for it’s [sic] malicious and ruthless way it

has handled this delinquency.” (Doc. 1-1, p. 7).
Regions responds that because Mr. Hines was a debtor in bankruptcy when
his mortgage went into default, RESPA restricted Regions from making contact
with Mr. Hines in the manner that Mr. Hines claims RESPA requires.

Regions

also contends that Mr. Hines failed to adequately plead an injury caused by the
alleged RESPA violations. Additionally, Regions argues that Mr. Hines’s RESPA
allegations fail to state a claim because the regulatory sections to which he cites do
not provide a private right of action.
2 Regions also argues that Mr. Hines has abandoned his RESPA claims. (Doc. 13, p. 5). Mr.

aftefthe
pro se litigants are not as strict as those for attorneys.

2)- f^d^s

Case 5:16-cV-01996-MHH Document 22 Filed 02/15/18 Page 9 of 22

Section 1024.39 of Regulation X requires mortgage servicers to “establish or
make good faith efforts to establish live contact with a delinquent borrower no later
than the 36th day of a borrower’s delinquency and again no later than 36 days after
each payment due date so long as the borrower remains delinquent.” 12 C.F.R. §
1024.39(a). Servicers also must “inform the borrower about the availability of loss
mitigation options, if appropriate.” Id. Section 1024.39 sets some parameters for
the servicer’s contact with the borrower by prescribing the timing and contents of
the notice that the servicer must send when the borrower is delinquent. 12 C.F.R. §
1024.39(b).
When the borrower is in bankruptcy, § 1024.39 partially exempts mortgage
servicers from the foregoing requirements. The servicer is relieved of paragraph
(a)’s obligation to establish live contact with the borrower, and the servicer is
exempt from paragraph (b)’s obligation to provide statutory notice to the borrower
but only if loss mitigation options are not available to the borrower or the borrower
has provided notification pursuant to die Fair Debt Collection Practices Act. 12
C.F.R. §§ 1024.39(c)(l)(i) & (ii). If, however, those exemptions do not apply, then
the servicer must provide the notice required by paragraph (b) to a borrower in
bankruptcy “not later than the 45th day of the borrower’s delinquency.” 12 C.F.R.
§ 1024.39(c)(iii)(A).3

312 C.F.R. §§ 1024.39(c)( 1 )(i)—(iii) read in full as follows:
9

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 10 of 22

Section 1024.40 requires the servicer to implement policies “reasonably
designed to achieve” certain objectives including providing timely responses to
inquiries from a delinquent borrower and providing a delinquent borrower with
personnel to address the borrower’s inquiries and loss mitigation options.
12 C.F.R. §§ 1024.40(a)(lK3).

(c) Borrowers in bankruptcy—
(1) Partial exemption. While any borrower on a mortgage loan is a debtor in bankruptcy
under title 11 of the United States Code, a servicer, with regard to that mortgage loan:
(i) Is exempt from the requirements of paragraph (a) of this section;
(ii) Is exempt from the requirements of paragraph (b) of this section if no loss mitigation
option is available, or if any borrower on the mortgage loan has provided a notification
pursuant to the Fair Debt Collection Practices Act (FDCPA) section 805(c) (15 U.S.C.
1692c(c)) with respect to that mortgage loan as referenced in paragraph (d) of this section;
and
(iii) If the conditions of paragraph (c)(l)(ii) of this section are not met, must comply with the
requirements of paragraph (b) of this section, as modified by this paragraph (c)(l)(iii):
(A) If a borrower is delinquent when the borrower becomes a debtor in bankruptcy, a
servicer must provide the written notice required by paragraph (b) of this section not later
than the 45th day after the borrower files a bankruptcy petition under title 11 of the
United States Code. If the borrower is not delinquent when the borrower files a
bankruptcy petition, but subsequently becomes delinquent while a debtor in bankruptcy,
the servicer must provide the written notice not later than the 45th day of the borrower's
delinquency. A servicer must comply with these timing requirements regardless of
whether the servicer provided the written notice in the preceding 180-day period.
(B) The written notice required by paragraph (b) of this section may not contain a request
for payment.
(C) A servicer is not required to provide the written notice required by paragraph (b) of
this section more than once during a single bankruptcy case.

10

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 11 of 22

When read in the light most favorable to Mr. Hines, the complaint contains
sufficient factual matter to state a plausible claim for violation of § 1024.39. Mr.
Hines alleges that Regions did not communicate with him about his mortgage
delinquency or his desire to avail himself of loss mitigation options. (Doc. 1-1, p.
5). As the foregoing review of § 1024.39 indicates, Mr. Hines’s status as a debtor
in bankruptcy did not absolve Regions of its duties to communicate with Mr.
Hines; it only altered those duties. At the pleadings stage, the Court cannot resolve
factual questions regarding those continued duties, such as whether Mr. Hines was
eligible for loss mitigation or whether Regions was still obligated to comply with
1024.39(b)’s written notice requirement. The pleadings indicate that Mr. Hines’s
mortgage became delinquent more than a year after he filed for bankruptcy. (Doc.
1-1, p. 5). This fact suggests that Mr. Hines made some payments towards his
mortgage after filing for bankruptcy. If this is so* then Regions remained obligated
to communicate with Mr. Hines regarding his delinquency through statutory
notices even though the bankruptcy proceeding had relieved Mr. Hines of his
personal obligation on the mortgage.

See 12 C.F.R. § 1024.39(c)(2)(ii). Thus,

Mr. Hines’s complaint raises questions of Regions ’s compliance with Regulation X
that the Court cannot resolve at this stage of the litigation.
To state a claim for relief, Mr. Hines also must allege that Regions’s
violation of § 1024.39 caused him injury. See Frazile v. EMC Mortg. Corp., 382
11

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 12 of 22

Fed. Appx. 833, 836 (11th Cir. 2010). Mr. Hines alleges that Regions’s RESPA
violation - the bank’s failure to respond to his questions about his delinquency caused him emotional damage in the form of “embarrassment, mental anguish,
pain and suffering.” (Doc. 1—1, p. 7). Regions argues that any such distress was
the result of Mr. Hines’s failure to pay his mortgage, not the result of Regions’s
action or inaction. Both parties present facially plausibly theories of what caused
Mr. Hines’s alleged mental suffering, but causation is a factual question which
ordinarily is proper to address at die summary judgment stage. Cf Tanasi v.
CitiMortgage, Inc., 257 F. Supp. 3d 232, 274 (D. Conn. 2017) (holding that the
causation question between plaintiffs’ psychological injury and defendants’
RESPA violations could be resolved only after the parties had adduced relevant
evidence). To resolve the motion to dismiss, it is enough that Mr. Hines alleges a
plausible connection between his injury and Regions’s alleged RESPA violation
Mr. Hines, however, has not alleged facts to support his claim that Regions’s
violated § 1024.40 because Mr. Hines’s allegations are limited to how Regions
handled his mortgage delinquency. (Doc. 1—1, p. 5). Mr. Hines does not allege
that Regions failed to implement policies reasonably designed to achieve that
section’s objectives, only that Regions did not achieve those objectives in handling
his mortgage delinquency. Therefore, Mr. Hines has not adequately pleaded his
claim for violation of section 1024.40.
12

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 13 of 22

Regions argues that, regardless of the sufficiency of Mr. Hines’s factual
allegations, he cannot bring an action based on the cited sections of Regulation X
because neither section provides a private right of action. Although Regions may
be correct with respect to Mr. Hines’s claim under § 1024.40, the Court is not
persuaded that § 1024.39 does not support a private right of action.
The Eleventh Circuit has not definitively answered the question of whether
either section 1024.39 or 1024.40 includes a private right of action. See Cilien v.
US. Bank Nat’l Ass’n, 687 Fed. Appx. 789, 792 n.2 (11th Cir. 2017) (observing
that neither section expressly provides a private right of action but first evaluating
the sufficiency of the plaintiff’s factual allegations). Still, the Consumer Financial
Protection Bureau’s 2013 amendment of Regulation X indicates that a private
action exists under section 1024.39. The Bureau’s official commentary to its
Regulation X amendments divides the amendments’ purposes into nine discreet
areas. See Mortgage Servicing Rules, 78 Fed. Reg. at 10696-97. The Bureau
expressly notes that no private right of action exists in two of these areas: (1)
general servicing policies and procedures as well as (2) policies and procedures
relating to continuity of contact with delinquent borrowers. Mortgage Servicing
Rules, 78 Fed. Reg. at 10697-98. This indicates that Mr. Hines does not have a
private right of action under § 1024.40 because § 1024.40 concerns the mortgage
servicer’s general policies and not the borrower’s rights.
13

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 14 of 22

However, the Bureau’s decision to expressly preclude a private right of
action only for claims of inadequate servicer policies implies that a private right of
action exists in Regulation X’s other areas of concern. Among these are the
servicer’s obligation “to establish live contact with borrowers by the 36th day of
their delinquency,” to “inform such borrowers, where appropriate, that loss
mitigation options may be available,” and to “provide a borrower a written notice
with information about loss mitigation options;” the same obligations covered by
section 1024.39.

Mortgage Servicing Rules, 78 Fed. Reg. at 10698.

This

implication arises from the principle of statutory interpretation that when specific
language is used in one provision but is omitted in another provision of the same
statute or regulation, the Court presumes that the omission is purposeful and
indicates an intended difference in the treatment of the those sections. See
Barnhart v. Sigmon Coal Co., Inc., 534 U.S. 438, 452 (2002); Cremeen v. City of
Montgomery, 602 F.3d 1224, 1227 (11th Cir. 2010) (holding that courts apply the
canons of construction used to interpret statutes to interpret regulations).
The implication that a private right of action exists for a servicer’s violation
of certain RESPA obligations would be of no importance if the underlying statute
provided no private right of action. See Alexander v. Sandoval, 532 U.S. 275, 291
(2001) (“Language in a regulation may invoke a private right of action that
Congress through statutory text created, but it may not create a right that Congress
14

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 15 of 22

has not.”)- Here, however, § 2605(f) of RESPA provides a private right of action
against a servicer that “fails to comply with any provision of this section.” 12
U.S.C. § 2605(f). Within § 2605 is the requirement that “[a] servicer of a federally
related mortgage shall not... fail to comply with any other obligation found by the
Bureau of Consumer Financial Protection, by regulation, to be appropriate to carry
out the consumer protection purposes of this chapter.” 12 U.S.C. § 2605(k)(l)(E).
Mr. Hines alleges that Regions failed to comply with such a regulatory obligation.
Therefore, the Court denies Regions’s motion with respect to Mr. Hines’s RESPA
claims under § 1024.39.
c. Equitable Claims
Mr. Hines raises several equitable defenses to Regions’s effort to foreclose
on his property: equitable estoppel, laches, and unclean hands. The common
thread running through Mr. Hines’s equitable arguments is his allegation that
Regions’s “unreasonable delay” in exercising its foreclosure right makes any
further attempt to foreclose on the property inequitable. (Doc. 1 - 1, p. 7).
i.

Equitable Estoppel

Mr. Hines argues that Regions is estopped from asserting its foreclosure
right because Regions waived its right to pursue this remedy through its
“excessive, unjustified delay in asserting its rights,” a delay which Mr. Hines
claims implied Regions’s abandonment of its rights. (Doc, 1-1, pp. 6-7).
15

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 16 of 22

To establish the essential elements of equitable estoppel, [the
proponent] must show the following:
(1) That ‘[t]he person against whom estoppel is asserted, who usually
must have knowledge of the facts, communicates something in a
misleading way, either by words, conduct, or silence, with the
intention that the communication will be acted on;’
(2) That ‘the person seeking to assert estoppel, who lacks knowledge
of the facts, relies upon [the] communication;’ and
(3) That ‘the person relying would be harmed materially if the actor is
later permitted to assert a claim inconsistent with his earlier conduct.’
Lambert v. Mail Handlers Benefit Plan, 682 So. 2d 61, 64 (Ala. 1996) (quoting
Gen. Elec. Credit Corp. v. Strickland Div. of Rebel Lumber Co., 437 So. 2d 1240,
1243 (Ala, 1983)). Mr, Hines does not allege that Regions made misleading
statements. Rather, Mr. Hines appears to allege that Regions’s failure to foreclose
for thirty one months after the mortgage became delinquent was conduct or silence
that communicated Regions’s intent not to invoke its foreclosure right at any point
in the future. The Court is not persuaded.
First, it is not clear that, by forbearing from immediately foreclosing,
Regions communicated anything to Mr. Hines that the bank intended him to act on.
Second, Mr. Hines was aware of the mortgage agreement that he signed, and that
agreement states in relevant part that “Grantor understands Lender will not give up
any of Lender’s rights under this mortgage unless Lender does so in writing. The
fact that Lender delays or omits to exercise any right will not mean that Lender has
16

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 17 of 22

given up that right.” (Doc. 7-2, p. 6).4 In light of this language, Mr. Hines knew
or should have known that Regions’s inaction, standing alone, did not constitute a
waiver of the bank’s rights. Finally, Mr. Hines does not explain how he changed
his course of action in reliance on Regions’s conduct such that he will be unfairly
prejudiced if Regions is now permitted to foreclose. Therefore, the Court grants
Regions’s motion with respect to Mr. Hines claim of equitable estoppel.
ii.

Laches

Second, Mr. Hines argues that Regions is barred by the doctrine of laches
from foreclosing on the mortgage. Alabama law defines laches as a “neglect to
assert a right or a claim that, taken together with a lapse of time and other
circumstances causing disadvantage or prejudice to the adverse party, operates as a
bar.” Ala. Bd. of Exam’rs in Psychology v. Hamilton, 150 So. 3d 1085,1092 (Ala.
Civ, App, 2013) (quoting Ex Parte Grubbs, 542 So, 2d 927, 928-29 (Ala, 1989)),
“[T]he person asserting the defense of laches [must] show (1) that the claimant
delayed in asserting his or her right, (2) that the delay was inexcusable, and (3) that
the delay caused the person asserting the defense undue prejudice.” L.B. Whitfield,
III Family LLCv. Whitfield, 150 So. 3d 171,180 (Ala. 2014).

4 The Court is permitted to consider the mortgage agreement attached to Regions’s motion
because the document is central to Mr. Hines’s claims, and the authenticity of the document is
not disputed. See Brooks v. Blue Cross & Blue Shield of Fla., Inc., 116 F.3d 1364, 1369 (11th
Cir. 1997).
17

Case 5:16-cv-Q1996-MHH Document 22 Filed 02/15/18 Page 18 of 22

The Alabama Supreme Court has held that the applicability of laches
depends on more than the passage of time. See, e.g., Delaney’s, Inc. v. Pritchard,
480 So. 2d 1204, 1206-07 (Ala. 1985). “So long as parties are in the same
condition, it matters little whether one presses a right promptly or slowly, within
limits allowed by law.” L.B. Whitfield, 150 So. 3d at 181 (internal quotations
omitted). Consequently, Mr. Hines must plead facts indicating “that [Regions’s]
delay has caused such prejudice or disadvantage to [him] that permitting the
proceedings to continue would be fundamentally unfair.” Ala. Bd. of Exam ’rs in
Psychology, 150 So. 3d at 1092. The Court may find the requisite unfairness
where the delay has caused the “unavailability of witnesses, changed personnel,
and the loss of pertinent records.” Hamilton, 150 So. 3d at 1092. The Court also
may find sufficient unfairness where there has been “some change in the condition
or relation of the property, or the parties during the delay,” LB, Whitfield, 150 So,
3d at 181 (internal quotations omitted).
Mr. Hines does not allege that Regions’s delay caused changes to warrant
the conclusion that continuing with these proceedings would be fundamentally
unfair. The parties’ respective interests in the property at issue appear to be the
same, and the records pertaining to the parties’ dispute are available. Therefore,
the Court grants Regions’s motion with respect to Mr. Hines’s laches theory.

18

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 19 of 22

in.

Unclean Hands

Mr. Hines’s final equitable theory is that Regions’s wrongful conduct
precludes the bank from exercising its contractual rights under the doctrine of
“unclean hands.” Mr. Hines grounds this claim in both Regions’s delay and
Regions’s alleged violation of RESPA. (Doc. 1-1, p. 7). “The purpose of the
clean hands doctrine is to prevent a party from asserting his, her, or its rights under
the law when that party’s own wrongful conduct renders the assertion of such legal
rights ‘contrary to equity and good conscience.’” Ala. Power Co. v. Keller, 2017
WL 5017388, at *12 (Ala. Civ. App. Nov. 3, 2017) (quoting Draughon v. Gen.
Fin. Credit Corp. , 362 So. 2d 880, 884 (Ala. 1978)). “The application of the clean
hands doctrine is a matter within the sound discretion of the trial court.” Bekken,
227 So. 3d at 1217 (quoting J & M Bail Bonding Co. v. Hayes, 748 So. 2d 198,
199 (Ala, 1999)),
Although Regions’s delay gives Mr. Hines no more traction here than in his
other equitable claims, Regions’s alleged RESPA violation is a different matter.
Courts in other states have recognized that a mortgage servicer’s failure to comply
with federal regulations governing mortgages can be asserted as a viable equitable
defense to foreclosure. See, e.g., Wells Fargo Home Mortg, Inc. v. Neal, 922 A.2d
538, 552-53 (Md. 2007) (holding that “if [the] contentions regarding Wells
Fargo’s failure to comply with the loss mitigation directives are proven to the
19

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 20 of 22

satisfaction of the trial court, such a failure may constitute improper and/or
inequitable conduct, depending on the proven circumstances.”).
The Alabama Court of Civil Appeals has found that a borrower may assert a
servicer’s regulatory non-compliance as a defense, at least in a pre-foreclosure
judicial proceeding such as Mr. Hines’s action. See, e.g., Campbell v. Bank of
America, N.A., 141 So. 3d 492, 496 (Ala. Civ. App. 2012); Coleman v. BAC
Servicing, 104 So. 3d 195, 206 (Ala. Civ. App. 2012). The mortgage agreement
states that it “will be governed by and interpreted in accordance with federal law.”
(Doc. 7-2, p. 6). Because the mortgage agreement is subject to RESPA, and
because Mr. Hines alleges that Regions’s handling,of his mortgage violated
RESPA, the Court concludes that Regions’s right to foreclosure on the mortgage is
sufficiently related to Regions’s alleged inequitable conduct.
Finally, Regions contends that even jfMr, Hines has adequately pleaded his
defense of unclean hands, that doctrine prevents him from asserting the defense
because Mr. Hines has not paid Regions the amount he owes on the mortgage.
(Doc. 7, pp. 14-15). Although certain Alabama cases hold that the proponent of an
equitable defense to foreclosure must offer to pay the amount that the Court
determines is owed, see Marsh v. Wayland, 96 So. 2d 805, 808 (Ala. 1957), that
doctrine does not bar Mr. Hines’s equitable claim at the pleading stage.

20

Case 5:16-cv-01996-MHH Document 22 Filed 02/15/18 Page 21 of 22

First, the Court cannot yet determine how much Mr. Hines owes on his
mortgage; neither party has provided a figure or evidence to support a figure.
Second, Mr. Hines has offered to pay a lump sum of $15,000 towards his debt and
to resume his payments “at the same monthly installments that were on the original
loan.” (Doc. 1-1, p. 7). Although the Court assumes that this represents less than
the amount Mr. Hines owes, it is, nonetheless, an offer to do equity especially
because the flexibility of equitable remedies should allow for consideration of Mr.
Hines’s ability to “do equity” in the form of payments. Finally, even those
Alabama cases that require die borrower to do equity do not require the proponent
to pay that sum before pleading the equitable defense. See Marsh, 96 So. 2d at
808. Therefore, Mr. Hines may proceed with his “unclean hands” defense, and the
Court denies Regions’s motion with respect to this equitable theory.
IV, CONCLUSION
For the reasons stated above, the Court grants Regions’s motion in part and
dismisses Mr. Hines’s claim for violation 12 C.F.R. 1024.40 and his effort to avoid
foreclosure under the principles of equitable estoppel and laches. The Court denies
Regions’s motion with respect to Mr. Hines’s claims for violation of 12 C.F.R.
1024.39 and Mr. Hines’s equitable defense of unclean hands. Finally, the Court
denies Mr. Hines’s motion for an entry of default against Regions.

21

Case 5:16-cv*01996-MHH Document 22 Filed 02/15/18 Page 22 of 22

The Court lifts the stay in this action and asks the parties to please confer
and file a Rule 26(f) report within 14 days of entry of this order.
The Court asks the Clerk to please mail a copy of this memorandum opinion
to Mr. Hines at his address on record.
DONE and ORDERED this February 15,2018.

ItfuL

MADELINE HUGHES HAIKALA
UNITED STATES DISTRICT JUDGE

22

Case: 5:16-cv-01996-MHH

Date Filed: 11/01/2018

Document #: 34-1
EXHIBIT

Page 1 of 7

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
NORTHEASTERN DIVISION
JAMES L. HINES,

}
}
}
}

Plaintiff,

}

v.

Case No.: 5:16-cv-01996*MHH

}

REGIONS BANK flk/a UNION
PLANTERS BANK, N.A.,
Defendant.

}
}
}
}

ORDER
On February 15,2018, the Court granted in part and denied in part defendant
Regions Bank’s motion to dismiss pro se plaintiff James L. Hines’s claims against
the bank. (Doc. 22, p. 21). This matter now is before the Court on Regions’s motion
for reconsideration. (Doc. 24). Regions argues that the Court erred in allowing Mr.
Hines to proceed on his claim for violation of 12 C.F.R. 1024.39 and his claim based
on the equitable doctrine of unclean hands. (Doc. 22, p. 21). For the reasons
discussed below, the Court will grant Regions’s motion to reconsider and will
dismiss all of Mr. Hines’s claims.
STANDARD OF REVIEW
“In the interests of finality and conservation of scarce judicial resources,
reconsideration of an order is an extraordinary remedy and is employed sparingly.”
1

FILE

201B Nov-01 AM 09
U.S. DISTRICT COU
N.D. OFALABA

Case: 5:16-cv-01996-MHH

Document #: 34-1

Date Filed: 11/01/2018

Page 2 of 7

Wallace v. Holder, 846 F. Supp. 2d 1245, 1248 (N.D. Ala. 2012). A motion to
reconsider ‘“cannot be used to relitigate old matters, raise [new] argument or present
evidence that could have been raised prior to the entry of judgment.

Jacobs v.

Tempur-Pedic Inti, Inc., 626 F.3d 1327,1344 (11th Cir. 2010) (quoting Arthur v.
King, 500 F.3d 1335,1343 (11th Cir. 2007)) (alterations in original omitted). “‘The
only grounds’” for granting a motion to reconsider “‘are newly-discovered evidence
or manifest errors of faw O7iact:”rA«A«Vr500 F.3d at 1343 (quoting In re Kellogg,
197 F.3d 1116,1119 (11th Cir. 1999)).

BACKGROUND
Mr. Hines filed for Chapter 7 bankruptcy in October 2013, and the bankruptcy
court discharged his case on February 11,2014. (Doc. 1-1, p. 5,17). Mr. Hines has
been in default of his mortgage since December 7, 2014. (Doc. 1-1, p. 5). In
response to Regions’s effort to foreclose on his property , Mr. Hines filed this lawsuit
in the Circuit Court of Madison County, Alabama. (Doc. 1-1, pp. 3, 6). Mr. Hmes
contends that in its effort to execute “a non-judicial foreclosure” on his property,
Regions violated sections 1024.39 and 1024.40 of the Real Estate Settlement
Procedures Act (RESPA) and the equitable doctrines of estoppel by acquiescence,
laches, and unclean hands. (Doc. 1-1, pp. 5-6). Regions asked the Court to dismiss
these

statutory and equitable claims under Rule 12(b)(6) of the Federal Rules of Civil

Procedure. (Doc. 7).
2

Case: 5:16-cv-01996-MHH

Document#: 34-1

Date Filed: 11/01/2018

Page 3 of 7

The Court granted in part and denied in part Regions’s motion to dismiss.
(Doc. 22). Regarding the section 1024.39 claim, the Court denied Regions’s motion
to dismiss because the Court concluded that Mr. Hines’s “complaint contained]
sufficient factual matter to state a plausible claim for violation of § 1024.39.” (Doc.
22, p. 11). The Court stated: “[t]o resolve the motion to dismiss, it is enough that
Mr. Hines alleges a plausible connection between his injury and Regions’s alleged
RESPA violation.” (Doc. 22, p. 12). Regions’s alleged violation of section 1024.39
served as the basis for Mr. Hines’s equitable claim based on the doctrine of unclean
hands. (Doc. 1-1, p. 7; Doc. 22, p. 20). The Court denied Regions’s motion to
dismiss Mr. Hines’s equitable claim because “[t]he Alabama Court of Civil Appeals
has found that a borrower may assert a servicer’s regulatory non-compliance as a
defense, at least in a pre-foreclosure judicial proceeding such as Mr. Hines’s action.”
(Doc. 22, p. 20). Regions asks the Court to reconsider these findings and dismiss
these two claims. (Doc. 24).
DISCUSSION
In support of its motion to reconsider, Regions points out that the Court’s
order denying the bank’s motion to dismiss rests on the Court’s analysis of a version
of section 1024.39 that was not in effect when the conduct giving rise to Mr. Hines’s
RESPA claim occurred. (Doc. 24, p. 213). The Court based its decision on section
1024.39(c) of Regulation X. (Doc. 22, p. 9, n.3). That section of the regulation
3

Case: 5:16-cv-01996-MHH

Document #: 34-1

Date Filed: 11/01/2018

Page 4 of 7

provides a partial exemption for a servicer with respect to a borrower who is a
“debtor in bankruptcy under title 11 of the United States Code.” 12 C.F.R. §§
1024.39(c)( l)(i)-(iii).
The Court should have relied on section 1024.39(d). From January 2014 to
October 2017, section 1024.39(d)(1) read:

“A servicer is exempt from the

requirements of this section for a mortgage loan while die borrower is a debtor in
bankruptcy under Title 11 of the United States Code.

12 C.F.R. § 1024.39(d)(1)

(effective Jan. 10,2014 to Oct. 18,2017); Amendments to the 2013 Mortgage Rules
Under the Real Estate Settlement Procedures Act (Regulation X) and the Truth in
Lending Act (Regulation Z), 78 FR 62993-01, 2013 WL 5723225, at *62996,
*63004-05 (adding subsection (d) creating exemptions regarding borrowers in
bankruptcy and the Fair Debt Collection Practices Act and providing an effective
date of Jan. 10, 2014). The Consumer Financial Protection Bureau’s official
interpretation of subsection (d) explains that § 1024.39(d)(1) means that
“[c]ompliance with § 1024.39 is not required for any portion of the mortgage debt
that is discharged under applicable provisions of the U.S. Bankruptcy Code.
Amendments, 78 FR at *62997-98, 63005.
Mr. Hines alleges that Regions violated RESPA between December 2014 and
September 2016. (Doc. 1-1, pp. 5-6). By that time, the bankruptcy court had
discharged Mr. Hines, so that he no longer was personally liable on the mortgage
4

Case: 5:16-cv-01996-MHH

Document #: 34-1

Date Filed: 11/01/2018

Page 5 of 7

debt on his property. Only Regions’s mortgage lien survived the discharge. (Doc.
1-1, pp. 5-6, fj[ 7, 10, 12). Therefore, under the version of section 1024.39(d) in
effect between December 2014 and September 2016, Regions did not have to
comply with section 1024.39 in its effort to foreclose on the property subject to the
mortgage lien. See generally Leahy-Femandez v. Bayview Loan Servicing, LLC,
159 F. Supp. 3d 1294, 1301 (M.D. Fla. 2016) (where mortgage lien remained after
bankruptcy proceedings concluded, section 1024.39 of regulation Z exempted
compliance with certain Truth in Lending Act regulations). Consequently, the Court
committed clear error when it denied Regions’s motion to dismiss Mr. Hines’s
RESPA claim. As a matter of law, Regions’s foreclosure efforts did not violate
RESPA.
Because Regions had no obligation under RESPA, Mr. Hines s claim under
the equitable doctrine of unclean hands necessarily fails as well as a matter of law.
As the Court explained in its memorandum opinion, the clean hands doctrine
prevents a party “from asserting his, her, or its rights under the law when that party s
own wrongful conduct renders the assertion of such legal rights ‘contrary to equity
and good conscience.”’ Ala. Power Co. v. Keller, No. 2150979,2017 WL 5017388,
at *12 (Ala. Civ. App. Nov. 3, 2017) (quoting Draughon v. Gen. Fin. Credit Corp.,
362 So. 2d 880, 884 (Ala. 1978)). The purported wrongful conduct that provided a
basis for Mr. Hines’s unclean hands theory was Regions’s alleged RESPA
5

Case: 5:16-cv-01996-MHH

Document #: 34-1

Date Filed: 11/01/2018

Page 6 of 7

violations. (Doc. 22, p. 19). Because Regions’s conduct did not violate the version
of section 1024.39 that was in effect when Regions attempted to foreclose on Mr.
Hines’s property, Mr. Hines’s “unclean hands” theory fails.
CONCLUSION
For the reasons stated above, the Court grants Regions’s motion to reconsider
and dismisses Mr. Hines’s RESPA claim and his equitable claim based on the
doctrine of unclean hands. Because none of Mr. Hines’s claims has survived
Regions’s motion to dismiss, the Court will enter a separate order closing this case.
The Court asks the Clerk to please mail a copy of this memorandum opinion to Mr.
Hines at his address on record.1

1 Pursuant to the Court’s September 24,2018 status conference with Regions and Mr. Hines, the
Court denies Mr. Hines’s motion to set aside (Doc. 29) and motion for leave to file a reply (Doc.
31). Pertaining to his motion to set aside, Mr. Hines argues that the Court should set aside its
memorandum opinion because the Court should grant default judgment for Mr. Hines. (Doc. 29).
The Court disagrees for the reasons discussed in its previous memorandum opinion and during the
September 24 conference. (Doc. 22, pp. 3-7 (explaining that Mr. Hines’s attempted service of
Regions did not comport with Alabama’s rules of civil procedure)). As the Court explained during
the September 24, 2018 conference, the standard for the Court to grant a motion to reconsider
requires a party to present either “‘newly-discovered evidence or manifest errors of law or fac .
Arthur v. King, 500 F.3d 1335,1343 (11th Cir. 2007) (quoting In re Kellogg, 197 F.3d 1116,1119
filth Cir 1999) (alteration in Arthur)). Mr. Hines’s argument regarding the alleged service ot
Regions’s “attorney of record, W.L. Longshore” were addressed in die Court’s memorandum
opinion. (Doc. 22, pp. 3-7). The arguments Mr. Hines presented to the Court at the September
24,2018 conference and in his motion do not alter this analysis. Therefore, the Court denies Mr.
Hines’s motion to set aside.
The Court also denies Regions’s motion requesting a telephonic conference as moot. (Doc. 33).
Regions filed its motion for a conference on September 11, 2018. (Doc. 33). The Court held a
conference with the parties on September 24,2018. (September 24,2018 minute entry).
6

Case: 5:16-cv-01996-MHH

Document #: 34-1

Date Filed: 11/01/2018

Page 7 of 7

DONE and ORDERED this November 1,2018.

MADELINE HUGHES HAIKALA
UNITED STATES DISTRICT JUDGE

7

Case: 5-.16-CV-01996-MHH

Document #: 35-1

Date Filed: 11/02/2018

Page 1 of 1

FI I

2018 Nov-02 A
U.S. DISTRICT
N.D. OFAL

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
NORTHEASTERN DIVISION
JAMES L. HINES,

}
}
}
}

Plaintiff,

}

v.

REGIONS BANK tfk/a UNION
PLANTERS BANK, N.A.,
Defendant.

Case No.: 5:I6-cv-01996-MHH

}
}
}
}
}

FINAL ORDER
Consistent with its recent order dismissing Mr. Hines’s remaining claims
against Regions Bank (Doc. 34), the Court directs the Clerk to please close the file
and to please mail a copy of this memorandum opinion to Mr. Hines at his address
on record. i
DONE and ORDERED this November 1,2018.

MADELINE HUGHES HAIKALA
UNITED STATES DISTRICT JUDGE

1 In its February 15, 2018 memorandum opinion, the Court determined that most of Mr. Hines
claims against Regions Bank should be dismissed. (Doc. 22). The Court now has determined
that Mr. Hines’s final two claims against Regions Bank should be dismissed. (Doc. 34).
Therefore, the Court dismisses all of Mr. Hines’s claims against Regions. All claims as to all
parties have been resolved.

EXHIBIT 2

XH THE UNITED STATES DI8TRICT COURT
FOR NORTHERN DXSTRXCT OF ALABMA
JAMES L. BINES,
Plaintiff,
CM* No. 5:16-CV-01996-MHH

7.

RESIGNS BANK f/k/a
UNION PLANTERS BANK, N.A • t
Dafandant.

)

MOTION TO SET ASIDE MEMORANDUM OPINION DATED February IS. 2018
UNDER RULE 80(d) (DOF THE fNDERAL RUINS OF CIVIL PBOCNPUBK
COMES NOW Plaintiff James L. Hines and prays that this
Honourable Court will set aside its MEMORANDUM OPINION dated
February 15, 2018 and grant his motion for a default judgment
against Defendant Regions Bank, and as grounds states as follows:
1. Rule 60(d)(1) provides that This rule does not limit a
court's power to; (1) entertain an independent action to relieve
a party from a judgment, order, or proceeding for the following
reasons: (4) the judgment is void.
2. Judgment is a void judgment if court that rendered judgment
lacked jurisdiction of the subject matter, or of the parties, or
acted in a manner inconsistent with due process, Fed. Rules Civ.
Proc. Rule 60(b)(4).
3. The United States Supreme Court found that the failure to
serve the creditor with a summons and complaint was a procedural
error that did not amount to a violation of the creditor's
23

constitutional eight of due process.

Due process requires

notice "reasonably calculated, under all circumstances, to
apprise interested parties of the pendency of the action and
afford them an opportunity to present their objections."

United

Student Aid Funds Inc. v. Espinosa (No. 08-1134) 553 F.3d 1193.
4. In this case creditor received actual notice of the
action through its attorney of record N. L. Longshore, III and
could have timely filed an objection to the claim of Plaintiff.
Longshore would have been an agent by law to receive service of
process since he was authorized by the bank to file a suit of
foreclosure action against Plaintiff (which he withdrew when
Plaintiff filed this action against the bank). The mailing of
the summons to Regions' post office box was not Plaintiff's
action but was the Circuit Court of Madison County's action who
said that they would have to mail the summons and receive the
certificate of receipt.

Plaintiff was not aware that they had

not received the return receipt from the bank.

Regardless,

Regions cannot deny that they received notice of the pending
action and failed to respond, therefore, default judgment should
be granted to Plaintiff in this case.
5. I'm sure that attorney Longshore will testify in a court
of law that he informed Regions Bank of Plaintiff's claim
against them.
not.

It is not even realistic to think that he would

It's just another ploy of Regions Bank to cover and defend
24

■frhAj r inefficient, unprofessional and illegal manner in which it
has handled this account from the beginning of the borrower's
delinquency.
It is abundantly clear that Regions Bank received notice of
the action against it and failed to respond within the allotted
time period.

Notice of the complaint against it was

definitely received by an agent of law and the attorney of
record for Defendant, therefore judgment should be rendered
against Regions Bank by default.
Respectfully submitted this 18th day of April, 2018.

CS James L. Hines
203 Willowchase Dr.
Scottsboro, AL. 35768
(256) 589-6689
iimhinesl23flmsn.com

cmttiyicACT or a—mcci
I do hereby certify that a copy of the foregoing was served
via tJ.S. Mail on April 18, 2018 upon:
John David Collins
Braxton Thrash
1901 Sixth avenue North
2400 Regions/Harbert Plaza
Birmingham, AL 35203-2618
who are the attorney of record for Defendant.

25

Case: 18-14799 Date Filed: 07/29/2019 Page: 1 of 7
EXHIBIT 4-

[DO NOT PUBLISH]

IN THE UNTIED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-14799
Non-Argument Calendar
D.C. Docket No. 5:16-cv-01996-MHH

JAMES LEONARD HINES,
Plaintiff-Appellant,
versus
REGIONS BANK,
f.k.a. Union Platters Bank, NA.,
Defendant-Appellee.

Appeal from the United States District Court
for die Northern District of Alabama
(July 29,2019)
Before ED CARNES, Chief Judge, JILL PRYOR, and ANDERSON, Circuit
Judges.
PER CURIAM:

Case: 18-14799 Date Filed: 07/29/2019

Page: 2 of 7

James Leonard Hines, proceeding pro §§, appeals the district court’s
dismissal of his complaint against Regions Bank. He contends that he was entitled
to an entry of default judgment because he effected service ofprocess and Regions
failed to timely respond to his complaint
L
Hines filed a complaint against Regions in Alabama state court on
September 14,2016. Hines alleged that after he had declared bankruptcy and
defaulted on his mortgage, Regions violated the Real Estate Settlement Procedures
Act (RESPA) by ignoring his correspondence when he attempted to cure the
default.
On December 13,2016 Regions removed the action to federal court. A
week later it filed a motion to dismiss. In February 2017 Hines filed a motion for
default judgment and response to Regions* motion to dismiss. He alleged that after
he served his complaint, Regions Med to answer within the time limit set forth
under Rule 12 of the Alabama Rules of Civil Procedure. Regions responded,
attaching the state court summons and case action summary. The summons was
addressed to Regions’ post office box and did not list any officer or individual.
The case action summary showed that a summons and complaint were issued by
certified mail, but it did not include any entry for return of service.

2

Case: 18-14799

Date Filed: 07/29/2019

Page: 3 of 7

In February 2018 the district court issued a memorandum opinion denying
Hines

■ motion for default judgment and granting in part and denying in part

. Tie court found that Hines’ attempts at service of
Regions* motion to dismiss
rt with the Alabama Rules of Civil Procedure because his
process did not compo
* P.O. box ««d not an officer or authorized
summons was directed only to Regions
agent

. The court found that although Hines had also attempted to serve process

through the law firm that represented Regions in the initial foreclosure action, the
in that action did not make it Regions’ general
firm’s representation of Regions in
It also noted that neither attempt at service resulted in
agent for service of process.
required by Rule 4<I)(2XC) of the Alabama Rules
the return of a signed receipt as
. Accordingly the court denied Hines’ motion for defeult
of Civil Procedure
judgment but allowed his RESPA claim to proceed.
In the following monte Regions filed a motion to alter or amend the
judgment and Hines filed a motion to s

et aside the memorandum opinion. In

* motion, which it construed as a
November 2018 the district court granted Regions
. The court held that it had committed clear error in its
motion for reconsideration
earlier order by applying a version of RESPA that was not in effect at the time of
It
all of Hines’ claims because it found that they
the alleged violation,
were barred under a relevant exemption contained in the applicable version of

3

Case: 18-14799

Dale Filed: 07/29/2019

Page: 4 of 7

RESPA. Hines now appeals, contending that the district court erred in failing to
grant his motion for default judgment

n.
“We review the denial of amotion for a default judgment for abuse of
discretion.” Mitchell v. Brown & Williamson Tobacco Corn.. 294 F.3d 1309,
1316 (11th Cir. 2002). When service of process is challenged, the party on whose
behalf it is made—here Mr. Hines—bears the burden of establishing its validity.
Afttna Rug. Credit Tnc. v. Universal Decor & Interior Design. Inc.. 635 F.2d 434,
435 (5th Cir. 1981).
An entry of default is appropriate when a party against whom affirmative
relief is sought falls to plead or otherwise defend a case. See Fed. R. Civ. P. 55(a),
(b). But a party’s delay may result in a defeult judgment only if the party has been
properly served because “a court lacks jurisdiction over the person of a defendant
when that defendant has not been served.” Pardazi v. Cullman Med. Ctr.. 896 F.2d
1313,1317 (11th Cir. 1990).
When evaluating the sufficiency of service of process that occurred before
removal, we “look[] to the state law governing process.” Usatorres v. Marina
Mercante Nicaracuenses. SA.. 768 F.2d 1285,1286 n.l (11th Cir. 1985) (per
curiam). The Alabama Rules of Civil Procedure permit service upon a corporation
“by serving an officer, a partner (other than a limited partner), a managing or
4

•(oXzXOfr apiH i£q pajBidmajaoo ss jdtaoM paa8re b jo mnjai atfl hi psipisai
991AJ8S jb sjdmajjB .son® jo oaqjraB ‘asuo Ara ui pw -aaaapiAa aiqipaio ssaj panni
«^namyi|Kfdll TIB pons IQ 9MBPIA9 00 01 p3jl3I0d aHj MgjH (£00Z *®IV) Z£ SfrK

•og 988 WV -A t»l ‘*4!A-^d-^ Uo}W>I '»®!AJ*S 'P™ eazuo^ * W*
jo Bopoas preAapj jaipoBB jo „ssaooidjo aopuasjo sasodmd joj juaSa cb iCaaiQHB
ajp jo juauuBioddB oqijo aonappia ajqipaia si ojatp ssapin„ XaniouB s.jrapuajap
a uo ssaoojdjo mules azuoqjm job saop MB] BoreqBiv Wfl TBsSb pazuoipnB
s»i sb» nopaa amsopajoj aq» ai saoflSji Saprasaidai oug

«» W nopjassB

iCjosnpaoa aip sajpai san® '(9)(i>)B apvaXq paimbai sb suotfajijo jna8s jo
jaaffio Are oj ji ssaipps job pip pus Hopas amsopaiqj aqj bj saojSaa Snpnasajdaj
raiij m am <n pro xoq O d tsuoi3aa o% suoraums am P»s

•ampaoojd

HA10 jo sapta sorecpiv am mP* wodnioo jou pip ssaoojd jo aopuas yn %dmom
.sanjH TO Surarauajap ui uopajosip s*i asnqa ;ou pip ynoo puPip aqx
•(pappa sisaqduia) (o)fe)(i)t P Tl
^ftiiooaj uiTViai am110

ACJ fraaoopiA£ ^ ina2a staassaippa am J° aassajppa

paureu am o* XiaAijapjo map am, im »Aipajja W si Raui pappiao nSnoim
aaiAias •(OCflXzXl)* P ?I *(°)fr

°I paqposap nosjad a aq pnui aassaippa am

pain paypjao qdnojm pajaiuaqjj® si aaiAias jj •(9)(o)ir’d -aid *a **IV H*ssaoojdjo
oj m»i Xq jo ^auqmodda Xq pazuomi® paSa Xua jo ‘praSa jaianaS
aoiAjas
aAiaoai
•
•
2. ps :aBad

6T0Z/6Z/X0 :p®l!d OPQ

66Z.H-8T »SBO

Case: 18-14799

Date Filed: 07/29/2019 Page: 6 of 7

Hines argues that he was not required to follow die Alabama Rules of Civil
Procedure as long as Regions received adequate notice that did not violate its due
process rights, relying on United St tent Aid Funds. Tnc. V. Espinosa. 559 U.S.
260(2010). That reliance is misplaced. In Espinosa the Supreme Court held that a
debtor’s Mure to adequately serve the creditor with a summons and complaint in
accordance with the Bankruptcy Rules did not justify setting aside the bankruptcy
court’s judgment as void under Rule 60(b)(4) ofthe Federal Rules of Civil
Procedure. Id. at 272. The Court recognized that Espinosa’s Mure to serve the
creditor deprived it “of a right granted by a procedural rule” and that the creditor
“could have timely objected to this deprivation and appealed from an adverse
’ Id, But the creditor, despite having actual notice, Med to
ruling on its objection.”_
make such a timely objection or appeal and instead sought to overturn the
Bankruptcy Court’s final judgment under Rule 60(bX4). Id. at 264-68. Because a
judgment must be “so affected by a fundamental infirmity that the infirmity may be
raised even after the judgment becomes final” to be declared void under Rule
60(b)(4), the Court held that the creditor was not entitled to relief because it had
actual notice and failed to file a timely appeal. LdL at 270.
Hines is incorrect that under Espinosa he is entitled to default judgment so
long as Regions had actual notice of his complaint and Med to make a timely
answer. Rather Espinosa recognized that violating the Bankruptcy Rules’ service
6

Case: 18-14799 Date Filed: 07/29/2019

Page: 7 of 7

of process provisions deprived die creditor of a right that it could have vindicated
on direct appeal instead of trying to take die extraordinary step of voiding a final
judgment under Rule 60(bK4). See id. at 272- Nothing in Espinosa excuses Hines
from complying with the Alabama Rules of Civil Procedure, And we have held
*

X

that providing a defendant with actual notice does not excuse a party from
following such rules. See Albra v. 4dvfln- ^nc“ 490 F.3d 826,829 (11th Cir. 2007)
(per curiam) (“A defendant’s actual notice is not sufficient to cure defectively
executed service.**). So we cannot say that the district court abused its discretion in
declining to grant Hines’ motion for default judgment.
AFFIRMED.

7

EXHIBIT >5

IV THE ONITED STATES COOKE OF APPEALS
FOR THE 1LEV1NTH CXRCOZT
James Leonard Hines )
Plaintiff/Appellant ' )
)

v.

)

Appeal No. 18-14799-H

)

Regions Bank
Defendant/Appellee

)

)

PLAINTIFF'S NOTICE FOR AMD MOTION
BECD0M8XPEBATI0W OF FINAL ORDER

PLEASE TAKE NOTICE, pursuant to Rule 59(e) FRCP,
Plaintiff, James Leonard Hines, hereby submits this
motion for reconsideration of the Court's Final Order
dated July 29, 2019, and as set forth below provides
grounds for reconsideration of the Court's Order.
1.

This case was predicated on the due process

of law in a summons and complaint, as to whether it was
properly served on the defendant.

After making proper

service, the plaintiff must prove to the court that
service was made, but failure to prove service does not
affect the validity of service.
2.

See Fed R. Civ. 4(1).

As prescribed by federal regulations, the
1

summons and complaint were posted by certified mail to
the defendant through the U. S. Mail to the address of
the defendant.

This action was completed by the Circuit

Court of Madison County, Alabama and was also mailed to
the attorney of record for the defendant, Regions Bank.
There was a breakdown in communications between the
Circuit Court of Madison County, Alabama and plaintiff
as it did not inform plaintiff that it had not received
a signed copy of receipt.

Nevertheless, the Alabama

Rules of Civil Procedure allows for service that was not
Accepted, or refused, by mailing a copy of the summons
and complaint to the defendant or attorney of record,
and this service was effected
\

Service shall be deemed

complete when the fact of mailing is entered of record.
Alabama Rules of Civil Procedure Rule 4 Subdivision e.
3.

The Court made some credible points of

interest regarding Espinosa but it failed to recognize
the fact that the U.S. Supreme Court made some of the
same rulings in other cases such as Simon V. Craft, 182
U.S. 427 (1901) In that case, the Supreme Court stated
2

that the essential elements of due process of law are
notice and opportunity to defend, and in determining
whether such rights are denied, the Court is governed by
the substance of things, and not by mere form,

A person

is not denied due process of law by being refused an
opportunity to defend when in fact actual notice was
served upon him of the proceedings, and when, if he had
chosen to do so, he was at liberty to make such defences
as he deemed advisable. If the court grants the relief,
notwithstanding the procedural defects, adversely
affected parties who received notice may be bound and
will have difficulty seeking to set aside the court's
order solely on the grounds of denial of due process.
The majority of the courts are surely correct that the
Due Process Clause does not require "heroic efforts" to
ensure actual notice,

The moral is that a party who

received actual notice but is not vigilant cannot depend
upon a claimed denial of due process to reclaim its
rights.
4.

A party is deemed to have waived any objection
3

to personal jurisdiction or service of process if the
party makes a pre-answer motion under Rule 12 and fails
to include such objections in that motion.

See Wright &

A. Miller, Federal Practice and Procedure Sec. 1391, at
852-53 (1969).

Therefore, the defendant, Regions Bank,

failed to raise its personal-jurisdiction and serviceof-process objections in its pre—answer motion to
dismiss.

It waived any objections that it might have had

to the court's exercise of personal jurisdiction.

See

Kerah v. Derozier, 951 F. 2d 1509, 1512 (5th clr, 1988).
Only in its motion to remove the case to district court
did the defendant mention that it had no record of
receiving the summons and complaint, however no objection
was filed in that motion. It is certain from the language
of the motion that it was aware of the complaint or why
else would it have filed an action to remove it to the
district court?

From its action, defendant was

certainly aware of the complaint but tried to rely on a
procedural error to justify its position for not filing
an answer to deny the complaint.
4

CONCLUSION
For the reasons set forth above, Plaintiff
respectfully requests this Court to grant his motion
for reconsideration of the order dated July 29, 2019
and overrule the district court's findings in direct
conflict with the Supreme Court's direction on due
process of summons and complaint.

Even if there are

discrepancies in the service. Defendant has given up
any right to object to process of service.
Respectfully submitted his 12th day of August, 2019.

<3-

James Leonard Hines
Pro Se Appellant
203 Willowchase Dr.
Scottsboro, AL. 35769
(256) 599-6689
jimhinesl23@msn.com

EXHIBIT 6
Case: 18-14793

Ddte Filed: 08/28/2019

Page: 1 of 1

IN THE UNHID STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-14799-HH
JAMES LEONARD HONES,
Plaintiff-Appellant,
versus
REGIONS BANK,
f,La. Union Planters Bank, N.A.,
Defendant - Appellee.
Appeal from the United States District Court
for the Northern District of Alabama
BEFORE: ED CARNES, ChiefJudge, JILL PRYOR, and ANDERSON, Circuit Judges.
••

PER CURIAM:
The Petition for Panel Rehearing Eled lby James Leonard Hines is DENIED*
ENTERED FOR THE COURT:

CHIEF JUDGE
ORD-41

